September 29, 2010

DAVID E. WILLIAMS, JR.
VICE PRESIDENT, NETWORK OPERATIONS

DOUGLAS A. TULINO
VICE PRESIDENT, LABOR RELATIONS

LINDA J. WELCH
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

SUBJECT: Audit Report – Postal Vehicle Services - Scheduling and Staffing -
         Atlanta District (Report Number NL-AR-10-008)

This report presents the results of our audit of Postal Vehicle Service (PVS)
operations at the Atlanta District (Project Number 10XG009NL000). The U.S. Postal
Service Office of Inspector General (OIG) initiated this audit because the Atlanta
District was one of the top three districts in our assessment of operational risk based
on key transportation indicators. Our objective was to determine whether scheduling
and staffing of PVS operations are efficient, effective, and economical. See
Appendix A for additional information about this audit.

U.S. Postal Service transportation includes both nationwide network transportation
between cities and major facilities as well as delivery transportation between local
post offices and neighborhood delivery and pickup points. Network transportation
using Postal Service vehicles and employees is called PVS. Management typically
assigns PVS vehicles and personnel to Postal Service network facilities, such as
Network Distribution Centers (NDCs) or Processing and Distribution Centers
(P&DCs) in or near metropolitan areas. PVS operations are normally conducted
within 50 miles of the 154 Postal Service facilities with PVS operations. PVS drivers
travel about 150 million miles every year.

Because PVS operations are local, they are managed at the facility level under
guidance from district, area, and headquarters transportation officials. Drivers who
work within the PVS craft are represented by the American Postal Workers Union
(APWU), and the work rules which govern PVS operations are covered under the
Collective Bargaining Agreement.1 The existing collective bargaining agreement
allows for limited use of part-time employees for the PVS craft and requires
consecutive days off for employees in most circumstances.


1
    The duration of the existing agreement is February 3, 2007, through November 20, 2010.
Postal Vehicle Services - Scheduling and Staffing -                                                 NL-AR-10-008
 Atlanta District


Conclusion

The Atlanta District began taking steps based on our audit to more efficiently and
effectively manage PVS transportation processes and schedules, thereby reducing
driver workhours as well as associated fuel use and damage claims. In addition, the
Postal Service could use alternate schedules to include split days off and expand the
use of part-time drivers for PVS operations where possible. This would allow
managers to more efficiently staff operations and match workhours with workload.
By making these changes, we estimate the Atlanta District could save about $40.1
million over 10 years in labor and related costs.

Opportunities to Adjust PVS Vehicle Schedules

Postal Service management inconsistently developed driver schedules and assigned
some drivers more time than necessary to accomplish specified tasks. We also
found some schedules contained tasks that appeared unnecessary, including
excessive travel and loading and unloading time; duplicated trips, and excessive
unassigned time. This occurred because local transportation officials had not
conducted annual reviews of PVS operations as required. Based on our
recommendation, the Postal Service conducted a “zero-base” review2 during the
audit. As a result, management identified 23,920 excess hours within PVS
schedules in the Atlanta District.3 See Appendix B for our detailed analysis of this
topic.

We recommend the vice president, Southeast Area Operations:

1. Implement changes identified during the zero-base review and verify the removal
   of the 23,920 hours of savings achieved, which we estimate to be $12.6 million
   over 10 years.

Management’s Comments

The Southeast Area agreed with the 23,900 workhour savings identified in the
zero-base review in the Atlanta District. They have already eliminated 13 PVS routes
and restructured the remaining bids. See Appendix E for management’s comments
in their entirety.




2
  A “zero-base” review consists of analyzing whether tasks were actually needed, and if so, analyzing how much
time the drivers needed to perform them.
3
  Atlanta PVS operations are fluid, and the final accounting of hours may change based on operational
parameters.


                                                      2
Postal Vehicle Services - Scheduling and Staffing -                                                     NL-AR-10-008
 Atlanta District


Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation
and management’s corrective actions should resolve the issues identified in the
report.

Opportunities to Further Reduce Overall PVS Driver Labor Costs

The Postal Service could further reduce overall PVS operating costs by expanding
the use of all types of part-time drivers for PVS operations and utilizing split days off
for drivers. This would allow managers to more efficiently create schedules that
match workhours with workload, and thus reduce labor costs. These conditions
occurred because the existing agreement between the Postal Service and its union
restricts the percentage of part-time workers, restricts the use of part-time regular
employees, and requires drivers to be given consecutive days off in certain size
facilities. If changes are made, we determined that for the Atlanta District, the Postal
Service has an opportunity to save $27.5 million over 10 years.4

We also benchmarked staffing and employee complement of motor vehicle
operations with another large commercial delivery company. We found that company
has the flexibility to schedule and staff their transportation operations more efficiently
based on operational parameters and volume forecasting, and can eliminate idle
time and unnecessary workhours within the craft. The Postal Service could
implement similar best practices to make PVS transportation operations more
efficient. See Appendix B for our detailed analysis of this topic.

We recommend the vice president, Network Operations:

2. Fully utilize the flexibility under the existing American Postal Workers Union
   Collective Bargaining Agreement and Memorandum of Understanding to
   increase the use of split days off for Postal Vehicle Service (PVS) drivers and
   maximize the use of part-time regular PVS drivers where possible.

We also recommend the vice president, Network Operations, coordinate with the
vice president, Labor Relations, to pursue additional flexibilities to:

3. Increase the allowable percentage of all types of part-time employees to allow
   maximum use of part-time regular employees in facilities with PVS operations.

4. Provide permanent flexibility to schedule split days off for employees in facilities
   with PVS operations.



4
 This is done by taking advantage of the current workhour schedule and staffing flexibilities under the existing
collective bargaining agreement work rules and by negotiating and modifying work rules, as necessary, in the
upcoming renewal of the collective bargaining agreement.


                                                         3
Postal Vehicle Services - Scheduling and Staffing -                                                    NL-AR-10-008
 Atlanta District


Management’s Comments5

Management agreed with the findings and recommendations. In response to
recommendation 2, management stated that the Memorandum of Understanding
(MOU) agreement between the union and the Postal Service, signed on January 15,
2009, has resulted in 21 pilot sites with amended work rules that include the use of
split days off, split shifts, and mixed duty assignments to increase productivity.
Further, management intends to propose implementation of additional pilot sites
during Fiscal Year (FY) 2011 to capture savings that can be achieved through more
efficient driver scheduling. In addition, where feasible, they are using part-time
regular drivers at local offices to increase PVS driver productivity.

In response to recommendations 3 and 4, Network Operations management stated
they are currently participating with Labor Relations in labor negotiations and have
prepared a plan to increase workforce flexibility to improve operational efficiency and
the effectiveness of PVS.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations
and management’s corrective actions taken or planned should resolve the issues
identified in the report.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be
closed in the Postal Service’s follow-up tracking system until the OIG provides
written confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have
any questions or need additional information, please contact Jody Troxclair, director,
Transportation, or me at 703-248-2100.

        E-Signed by Robert Batta
    VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments


5
  The VP, Labor Relations did not provide separate comments to our draft report. A representative from his office
stated that they were satisfied with the comments provided by the VP, Network Operations.


                                                        4
Postal Vehicle Services - Scheduling and Staffing -       NL-AR-10-008
 Atlanta District


cc: Patrick R. Donahoe
    Steven J. Forte
    Cynthia F. Mallonee
    Pamela S. Grooman
    Kate F. Wiley
    Corporate Audit and Response Management




                                                      5
Postal Vehicle Services - Scheduling and Staffing -                                          NL-AR-10-008
 Atlanta District


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Postal Service transportation includes both nationwide network transportation
between cities and major facilities as well as delivery transportation between local
post offices and neighborhood delivery and pickup points. Network transportation
using Postal Service vehicles and employees is called PVS. Management typically
assigns PVS vehicles and personnel to Postal Service network facilities, such as
NDCs or P&DCs in or near metropolitan areas. PVS operations are normally
conducted within 50 miles of the 154 Postal Service facilities with PVS operations.
PVS drivers travel about 150 million miles every year. Because PVS operations are
local, they are managed at the facility level under guidance from district, area, and
headquarters transportation officials.

The work rules which govern PVS operations are covered under the collective
bargaining agreement.6 The existing agreement allows for limited use of part-time
employees for the PVS craft, and requires consecutive days off for employees, with
the exception of PVS employees in a limited number of facilities under a pilot
program being explored through a MOU that allows for split days off.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether scheduling and staffing of PVS operations
are efficient, effective, and economical. Because individual facilities control PVS
operations, we localized our audit approach. This report focuses on PVS operations
at the Atlanta District in the Postal Service’s Southeast Area. There are two
processing facilities in the Atlanta District that employ PVS operations: the Atlanta
P&DC and the North Metro P&DC.

During our work, we visited both P&DCs within the Atlanta District as well as other
regional facilities. We reviewed relevant Postal Service policies and procedures,
interviewed managers and employees, and observed and photographed operations.
We evaluated the type of mail carried, and considered on-time service standards.
We examined the cost of PVS operations, including the cost of PVS personnel, fuel,
and damage claims. We identified unscheduled time and trip duplications as well as
analyzed potential trip consolidations. We also reviewed the collective bargaining
agreement the Postal Service has with the APWU that expires in 2010.




6
    The duration of the existing agreement is February 3, 2007, through November 20, 2010.


                                                        6
Postal Vehicle Services - Scheduling and Staffing -                                      NL-AR-10-008
 Atlanta District




                                   PVS Tractor Trailer being unloaded at the
                          Atlanta Logistics & Distribution Center on January 27, 2010.

Using Postal Service computer-generated data and other records, we analyzed 215
Atlanta District driver schedules; identified 297,587 annual workhours associated
with those schedules, and evaluated individual trips and trip load volume. We
conducted the analysis to determine whether management could reduce workhours
and labor costs. As part of our review of the Atlanta District’s PVS schedules, we
analyzed driver assignments, determined whether drivers made duplicate or
unproductive trips, and recommended that officials conduct a zero-base review to
correct deficiencies identified. We also reviewed the fuel reduction initiatives for
Postal Service-owned vehicles as contained in the Postal Service’s National Energy
Plan and determined whether our recommendations impacted the initiatives.

After the zero-base review was completed by the Atlanta District, we conducted
additional reviews of all the Atlanta District’s PVS schedules. Specifically, we
assessed actual workflow and identified times where 8 consecutive hours of work
was not necessary. We then applied part-time work assignment and split days off
scenarios in order to align workhours with workload. By doing so, we identified
additional opportunities for PVS workhour reductions for the Atlanta District.

We conducted this performance audit from November 2009 through September
2010 in accordance with generally accepted government auditing standards and
included such tests of internal controls as we considered necessary under the
circumstances. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objective. We discussed our observations and conclusions with management the
week of August 23, 2010, and included their comments where appropriate.

We did not audit or comprehensively validate the computer-generated data used in
our analyses; however, we noted several weaknesses that limited our work. For
example, some computer records had missing data and inaccurate load volumes.
Although these limitations constrained our work, we were able to compensate by
applying alternate audit procedures, including observation, physical inspection, and


                                                      7
Postal Vehicle Services - Scheduling and Staffing -                                          NL-AR-10-008
 Atlanta District


discussion with appropriate officials. We also applied conservative principles to our
workhours and cost reduction estimates.

PRIOR AUDIT COVERAGE

At the request of the vice president Network Operations, the OIG has previously
worked with the Postal Service to reduce PVS costs. As indicated in the chart that
follows, since March 2007, we have issued 11 audit reports that identified labor and
other potential savings exceeding $79.2 million. Management agreed with all our
recommendations. The methodology and findings presented in these reports are
comparable to the zero-base methodology and findings in this report. In addition
based on this body of work, we identified where additional flexibilities were needed
in the PVS craft, which lead to the audit work from which this report is being issued.

                                                                           Final        Monetary
                                                            Report
                    Report Title                                          Report         Impact
                                                            Number
                                                                           Date       (in millions)
   Postal Vehicle Service Transportation
   Routes – Memphis Processing and                        NL-AR-07-003   3/30/2007        $7.3
   Distribution Center
   Postal Vehicle Service Transportation –Los
                                                          NL-AR-07-006   9/21/2007        4.9
   Angeles Bulk Mail Center
   Postal Vehicle Service Transportation
   Routes – Milwaukee Processing and                      NL-AR-07-007   9/27/2007        4.0
   Distribution Center
   Postal Vehicle Service Transportation
   Routes – San Francisco Processing and                  NL-AR-08-003   3/26/2008        10.1
   Distribution Center
   Postal Vehicle Service Transportation
   Routes – Northern Virginia Processing and              NL-AR-08-006   9/25/2008        8.0
   Distribution Center
   Postal Vehicle Service Transportation
   Routes – Minneapolis Processing and                    NL-AR-09-001   2/13/2009        9.3
   Distribution Center
   Postal Vehicle Service Transportation
                                                          NL-AR-09-005   7/17/2009        4.3
   Routes – Philadelphia Bulk Mail Center
   Postal Vehicle Service Transportation
   Routes – Philadelphia Processing and                   NL-AR-09-006   7/20/2009        5.4
   Distribution Center
   Postal Vehicle Service Transportation
   Routes – Cardiss Collins Processing and                NL-AR-10-002   12/28/2009       18.3
   Distribution Center
   Postal Vehicle Service Transportation
   Routes – Southern Maryland Processing                  NL-AR-10-006   7/14/2010        4.8
   and Distribution Center



                                                      8
Postal Vehicle Services - Scheduling and Staffing -                                                 NL-AR-10-008
 Atlanta District



                                                                                Final          Monetary
                                                                 Report
                         Report Title                                          Report           Impact
                                                                 Number
                                                                                Date         (in millions)
      Postal Vehicle Service Transportation
      Routes – Washington Network Distribution                 NL-AR-10-007   8/04/2010          2.8
      Center
      Total                                                                                     $79.37


In addition, U.S. Government Accountability Office (GAO) issued five documents
listed in the following chart that include reports and summaries of testimony to
Senate subcommittees relating to postal's financial crisis and recommendations
needed to achieve financial viability.


                                            Report Title                          Date Issued

                  High Risk Series: Restructuring the U.S. Postal Service to
                  Achieve Sustainable Financial Viability (Testimony GAO-           7/2009
                  09-937SP)

                  U.S. Postal Service Restructuring Urgently Needed to
                                                                                    8/6/2009
                  Achieve Financial Viability, (Testimony GAO-09-958T)

                  U.S. Postal Service Financial Crisis Demands Aggressive
                                                                                   3/18/2010
                  Action, (Testimony GAO-10-538T)

                  U.S. Postal Service Strategies and Options to Facilitate
                  Progress toward Financial Viability (Report GAO-10-455            4/2010
                  April 2010)

                  U.S. Postal Service Action Needed to Facilitate Financial
                                                                                   4/15/2010
                  Viability, (Testimony GAO-10-624T)


GAO found that the Postal Service’s financial condition had deteriorated, its financial
outlook was poor, and that financial problems are likely to continue unless
fundamental changes are made to address challenges in its current business model
by better aligning costs with revenues. GAO also concluded that the Postal Service
has had difficulty reducing costs because of limited flexibility due in part to work
rules under collective bargaining agreements with the unions. Finally, GAO
concluded that making the necessary progress toward financial viability would
require the Postal Service and Congress to pursue strategies and options that
would:



7
    Total slightly higher due to rounding difference


                                                           9
Postal Vehicle Services - Scheduling and Staffing -                              NL-AR-10-008
 Atlanta District


       Reduce compensation, benefits, and other operations and network costs
        using the collective bargaining process to address wages, benefits, and
        workforce flexibility.

       Address legal restrictions and resistance to realigning Postal Service
        operations, networks, and workforce.

GAO noted that the Postal Service included many of these strategies and options in
the action plan it issued in March 2010, but these planned actions under its existing
authority will not be enough to make it financially viable. Therefore, GAO stated that
action by Congress and the Postal Service is urgently needed to require that any
binding arbitration resulting from collective bargaining would take the Postal
Service’s financial condition into account.




                                                      10
Postal Vehicle Services - Scheduling and Staffing -                                                  NL-AR-10-008
 Atlanta District


                              APPENDIX B: DETAILED ANALYSIS

Opportunities to Adjust PVS Vehicle Schedules

Based on our audit work, the Atlanta District began taking steps to improve PVS
processes and save money by correcting driver schedule weaknesses. During the
audit, we noted that management inconsistently developed driver schedules and
assigned some drivers more time than necessary to accomplish specified tasks. In
addition, we determined that some schedules contained tasks that appeared
unnecessary; included excess travel time; included excess loading and unloading
time; duplicated other trips, and contained excessive unassigned time. This occurred
because local transportation officials had not conducted annual reviews of PVS
operations as required.8 Based on our recommendations, the Postal Service
conducted a “zero-base” review during our audit.

As a result, management identified 23,920 excess hours within PVS schedules in
the Atlanta District. By removing these hours, the Atlanta District could save about
$12.6 million over 10 years without negatively affecting service. The Postal Service
would achieve more than 74 percent of the savings through staff workhour
reductions; however, the Postal Service would also realize fuel cost and damage
claim savings.9 Further, the actions would help achieve fuel consumption goals in
the Postal Service’s National Energy Plan by reducing fuel use for Postal Service
owned vehicles. The estimated PVS savings are depicted in Table 1. See Appendix
C for detailed calculations.

               Table 1. PVS Potential Savings – Funds Put to Better Use
                          (Personnel, Fuel, and Damage Claims)

                             FY 2011 Total                             10-Year Total
                            (Phased in over          FY 2013           (FYs 2011 to
      Cost Category            2 years)10         (Annual) Total          2020)11           Percentage
     Personnel                   $1,036,639            $993,682            $9,442,221         74.7%
     Fuel                          $206,030            $202,968            $1,992,490         15.8%
     Damage Claims                 $129,334            $125,442            $1,208,573          9.6%
     Total                       $1,372,004           $1,322,092          $12,643,284         100.0%




8
  Handbook PO 701, Fleet Management, March 1991, Chapter 23, requires PVS operations to perform vehicle
utilization reviews at least annually to maintain effectiveness and efficiency.
9
  Fuel and Tort Claim are estimated savings due to the potential reduction in miles driven attributable to the
elimination of the PVS schedules.
10
   The FY 2011 figure is conservative to allow for phase-in of workhour reductions during the year.
11
   The standard OIG practice for calculations of this type employs a 10-year cash flow methodology, discounted
to present value by applying factors published by the Postal Service Finance Department.


                                                      11
Postal Vehicle Services - Scheduling and Staffing -                                              NL-AR-10-008
 Atlanta District



Opportunities to Further Reduce Overall PVS Driver Labor Costs

The Postal Service could further reduce overall PVS operating costs by expanding
the use of all types of part-time drivers and by utilizing split days off for drivers, so
that managers could more efficiently create schedules that appropriately staff
operations and match workhours with required workload. We determined that for the
Atlanta District, the Postal Service has an opportunity to save $27.5 million over 10
years by reducing labor costs. Specifically, the Postal Service should take
advantage of workhour schedule and staffing flexibilities under the existing work
rules and pursue additional flexibilities in this area. See Appendix C for our detailed
calculations.




              Trailer departing Atlanta Logistics & Distribution Center on January 27, 2010
             Drivers in the Atlanta District work 8 hours per day, even though there are not 8
                                   hours of work within their schedules.

Current Work Rules. Most PVS drivers are full-time employees, and Postal Service
officials schedule most drivers a total of 40 hours per week, 8 consecutive hours per
day, 5 consecutive days per week, with consecutive days off. These conditions exist
because of work rules in the collective bargaining agreement between the Postal
Service and the APWU. In summary, the work rules:

     Restrict the percentage of part-time workers to 10 percent in the motor
      vehicle craft.

     Restrict the use of part-time regular employees to 2.5 percent of the overall
      work force.

     Require that consecutive days off be given in certain sized facilities.

These requirements create scheduling challenges for Postal Service managers in
that many PVS schedules do not contain a consecutive 8 hours of work for a driver
to perform. In addition, the requirement for consecutive days off creates a need for


                                                      12
Postal Vehicle Services - Scheduling and Staffing -                             NL-AR-10-008
 Atlanta District


additional drivers than would be needed if split days off were routinely allowed. (See
Appendix D for an analysis of consecutive and split days off.) Thus, the Atlanta
District uses more driver hours than is necessary to perform the necessary
transportation functions and is incurring unnecessary costs.

Limited Flexibility Under Existing Work Rules – MOU. On January 15, 2009, the
Postal Service entered into an agreement to relax some of the work rules governing
motor vehicle drivers. The MOU allows for PVS drivers to work under modified work
rules at a limited number of pilot facilities. The MOU, in part, allows:
       Drivers to have split days off.
       Drivers to work 8 non-consecutive hours within a 9-, 10-, 11-, or 12-hour day.
       Management to move employees into a different position within the
        installation without penalty, as long as there is no work to be performed in the
        motor vehicle craft.
Under the MOU, management, with approval from local union officials, have the
ability to implement any or all provisions. According to union officials, this agreement
was done out of necessity. In a statement posted on its official website, the union
stated, “The USPS decision to condense dispatch windows has made it hard to find
eight hours of continuous work for drivers.” In addition, they stated, “The union
agreed to the MOU because in virtually all installations there is insufficient work
within nine consecutive hours to keep all the drivers gainfully employed.” However,
this agreement is limited to a small number of facilities, and expansion requires
union approval.

More Scheduling Flexibility Needed in Work Rules. The Postal Service needs more
flexibility in staffing and scheduling PVS drivers to make the operations more
efficient.

Part-time Employees. As previously stated, the Postal Service is currently prohibited
from hiring an increased staff of part-time regular employees. Because work within
transportation has decreased because of a decline in mail volume and because of
distribution compressions at facilities, part-time employment within the Postal
Service would be beneficial and would help to significantly reduce costs in the PVS
motor vehicle craft. In addition, part-time regular employees enjoy the same benefits
afforded full-time employees including leave accrual, health benefits, and union
representation.

Split Days Off. As also previously stated, the Postal Service currently must give
consecutive days off, with the exception of those limited number of facilities covered
by the provision in the MOU allowing for split days off. We concluded that requiring
consecutive days off results in the need for additional drivers to cover schedules.
Specifically, the number of drivers needed to cover schedules on Sundays is a small
percentage as compared to other days of the week. Because the majority of drivers
have Sundays off, under the existing bargaining agreement, they must also have



                                                      13
Postal Vehicle Services - Scheduling and Staffing -                              NL-AR-10-008
 Atlanta District


either Monday or Saturday off to comply with the consecutive day off provision. If the
Postal Service can give these drivers another weekday off, fewer drivers would be
needed to cover Saturday and Monday schedules. With consecutive days off, two
additional employees are needed to cover each five full-time schedules. With non-
consecutive days off, one additional employee is needed to cover each five full-time
schedules. (See Appendix D for a chart illustrating how the use of split days off
results in fewer workhours.)

Benchmarking of Best Practices in the Motor Vehicle Craft. The Postal Service does
not have the same workforce flexibility that a competing delivery company has in the
private sector. We benchmarked staffing and employee complement of motor
vehicle operations with a company with operations similar to the Postal Service. We
determined that the other company has the flexibility to schedule and staff its
transportation operations more efficiently based on operational parameters and
volume forecasting. They can also readily eliminate idle time and unnecessary
workhours within the craft.

The competitor predominantly uses full-time employees, but management has the
ability to move employees from operation to operation based on the need of the
organization at that given time. If work is not available for drivers, management re-
assigns them to perform other tasks. Managers monitor workloads daily, evaluate
productivity in real time, and adjust the workforce in response to workload
fluctuations. The company is similar to the Postal Service in that its workforce
consists of employees represented by a union; however, its collective bargaining
agreements incorporate flexible scheduling.

Incorporating similar flexibilities and practices in the PVS craft would greatly benefit
the Postal Service. The flexibility would allow the Postal Service to match workload
with workhours and reduce labor costs by using part-time regular employees and
allowing for the regular use of split days off.




                                                      14
Postal Vehicle Services - Scheduling and Staffing -                                                    NL-AR-10-008
 Atlanta District


                   APPENDIX C: WORKHOURS COST REDUCTIONS12

The Postal Service is already in the process of implementing workhour reductions
associated with the zero-based analysis. As a result, full FY 2011 cost savings are
calculated.

               Postal-Initiated Workhour Reductions from Zero-Based Analysis
                                                                                    10-Year Total
                                      FY 2011                  FY 2013              (FYs 2011 to
         Cost Category                 Total                (Annual) Total              2020)
        Personnel                       $1,036,639                 $993,682              $9,442,221
        Fuel                                 206,030                 202,968               1,992,490
        Damage Claims                        129,334                 125,442               1,208,573

                Total                    $1,372,004               $1,322,092            $12,643,284



               Postal Service Agreed Workhour Reductions from Part-Time and
                                  Split Days Off Conversion
                                       FY 2011 Total                                  10-Year Total
                                      (Phased in over 2          FY 2013              (FYs 2011 to
            Cost Category                  years)             (Annual) Total              2020)
      Part-Time Conversion                     $563,097              $2,159,052            $18,275,261
      Split Days Off Conversion                  301,978              1,085,490              9,225,464
                 Total                         $865,074              $3,244,541            $27,500,725




                                 Total Workhour Reduction Savings
                                                                                   10-Year Total
                                           FY 2011 Total         FY 2013            FYs 2011 to
                 Cost Category              (Phased in)       (Annual) Total           2020)
          Workhour Conversion                    $865,074          $3,244,541         $27,500,725

          Zero-Based Analysis                   1,372,004           1,322,092           12,643,284
                                                                                                  13
                      Total                    $2,237,079          $4,566,633       $40,144,009



The standard OIG practice for workhour savings calculations employs a 10-year
cash flow methodology, discounted to present value by applying the following factors
published by Postal Service Headquarters Finance.


12
  Totals slightly different due to rounding.
13
  Impact Category: Funds put to better use are funds that could be used more efficiently by implementing
recommended actions.


                                                       15
Postal Vehicle Services - Scheduling and Staffing -                               NL-AR-10-008
 Atlanta District



              Rates by Type                                   Factor       Published
    Discount Rate/Cost of Borrowing                        3.875 percent    5/7/2010
    Labor Escalation Rate                                   1.7 percent     5/7/2010
    Fuel Cost Escalation Rate                               3.1 percent     5/7/2010
    Tort Cost Claim Escalation Rate                         2.3 percent     5/7/2010




                                                      16
Postal Vehicle Services - Scheduling and Staffing                                                                    NL-AR-10-008
Efficiencies


                    APPENDIX D: CONSECUTIVE AND NON-CONSECUTIVE DAYS OFF ANALYSIS

Fewer Drivers are Needed with Non-Consecutive Days Off - Daily schedules require replacement drivers to cover days off. The
number of drivers needed on lower volume Sundays is a small percentage of the number needed during other days of the week.
With consecutive days off, more drivers than are needed are scheduled on lower volume Sundays, resulting in an excess amount
of unassigned or standby time. With non-consecutive days off, most drivers would have lower volume Sundays off, and another
day during the week. With consecutive days off, two replacement drivers are needed for every five schedules. With non-
consecutive days off, one replacement driver is needed for every five schedules.

            Consecutive Days Off Schedule – Two Replacement Drivers Needed for Every Five Daily Schedules
              Consecutive
 Route                                Monday          Tuesday        Wednesday          Thursday        Friday      Saturday         Sunday
               Days Off
                                                                                                                    Replacement     Replacement
  101       Saturday/Sunday             101              101              101              101           101          Driver 1        Driver 1
                                    Replacement      Replacement
  102        Monday/Tuesday           Driver 1         Driver 1
                                                                          102              102           102           102                102
                                                      Part-Time      Replacement
  103     Tuesday/Wednesday             103          Flex/Casual       Driver 1
                                                                                           103           103           103                103
                                                                                        Replacement   Replacement
  104        Thursday/Friday            104              104              104             Driver 2      Driver 2
                                                                                                                       104                104
                                                                                                       Part-Time    Replacement
  105        Friday/Saturday            105              105              105              105        Flex/Casual     Driver 2
                                                                                                                                          105

          Non-Consecutive Days Off Schedule – One Replacement Driver Needed for Every Five Daily Schedules
           Non-Consecutive
Route                         Monday      Tuesday    Wednesday     Thursday      Friday      Saturday     Sunday
              Days Off
                                                                                                                    Replacement




                                                                                                                                       part-time flexible or casual
101        Saturday/Sunday             101             101              101                101           101          Driver 1




                                                                                                                                         schedules covered by
                                  Replacement




                                                                                                                                             Small number of
102        Sunday/Monday            Driver 1
                                                       102              102                102           102           102




                                                                                                                                               employees
                                                    Replacement
103        Sunday/Tuesday              103            Driver 1
                                                                        103                103           103           103
                                                                    Replacement
104      Sunday/Wednesday              104             104            Driver 1
                                                                                           104           104           104
                                                                                    Replacement
105       Sunday/Thursday              105             105              105           Driver 1
                                                                                                         105           105




                                                                       17
                                                               Restricted Information
Postal Vehicle Services - Scheduling and Staffing                  NL-AR-10-008
Efficiencies

                      APPENDIX E: MANAGEMENT’S COMMENTS




                                                       18
                                          Restricted Information
Postal Vehicle Services - Scheduling and Staffing -        NL-AR-10-008
 Atlanta District




                                                      19
Postal Vehicle Services - Scheduling and Staffing -        NL-AR-10-008
 Atlanta District




                                                      20
